<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2016</title>
<body><pre>[Senate Hearing 114-]
[From the U.S. Government Publishing Office]



 
    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2016

                              ----------                              


                       WEDNESDAY, MARCH 11, 2015

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:04 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Lamar Alexander (chairman) 
presiding.
    Present: Senators Alexander, Lankford, and Feinstein.

                          DEPARTMENT OF ENERGY

                National Nuclear Security Administration

STATEMENT LIEUTENANT GENERAL FRANK G. KLOTZ, U.S. AIR 
            FORCE (Retired), UNDER SECRETARY FOR 
            NUCLEAR SECURITY AND ADMINISTRATOR
ACCOMPANIED BY:
        DR. DONALD COOK, DEPUTY ADMINISTRATOR FOR DEFENSE PROGRAMS
        ANNE HARRINGTON, DEPUTY ADMINISTRATOR FOR DEFENSE NUCLEAR 
            NONPROLIFERATION
        ADMIRAL JOHN RICHARDSON, UNITED STATES NAVY, DIRECTOR, NAVAL 
            NUCLEAR PROPULSION, DEPUTY ADMINISTRATOR FOR OFFICE OF 
            NAVAL REACTORS


              opening statement of senator lamar alexander


    Senator Alexander. The Subcommittee on Energy and Water 
will please come to order. This morning, we're having a hearing 
to review the President's fiscal 2016 budget request for the 
National Nuclear Security Administration.
    Senator Feinstein and I will each have an opening 
statement. I will then recognize each Senator who comes for up 
to five minutes for an opening statement, alternating between 
the majority and the minority in the order that they arrive. We 
will then turn to witnesses for their testimony. General Klotz 
will present testimony on behalf of the entire NNSA and we'll 
include the full written statements of all the witnesses in the 
record. Senators will then be recognized for five minutes each, 
alternating between the minority and majority in the order that 
they arrive.
    First, I would like to thank our witnesses for being here, 
and also Senator Feinstein, who I will be working with to draft 
the appropriations bill for funds for the NNSA. Our witnesses 
today include Lieutenant General Frank Klotz, Administrator of 
the NNSA, Dr. Donald Cook, Deputy Administrator for Defense 
Programs, Ms. Anne Harrington, Deputy Administrator for Defense 
Nuclear Nonproliferation, and Admiral John Richardson, Deputy 
Administrator for Naval Reactors.
    We're here today to review the President's fiscal year 2016 
budget request for NNSA, which is a semiautonomous agency 
within the Department of Energy that's responsible for managing 
our nuclear weapons stockpile, reducing global dangers posed by 
weapons of mass destruction, and providing the Navy with safe 
and effective nuclear propulsion. This is the subcommittee's 
third hearing this year on the President's budget request, and 
I look forward to hearing our witness testimony.
    The NNSA has an important national security mission, but it 
faces many challenges. That's why we need to do what we can 
to--what we were sent here to do, and that is to govern. 
Governing is about setting priorities, and we are going to have 
to make some hard decisions this year to make sure the highest 
priorities are funded. The President's 2016 budget request for 
defense spending is nearly $38 billion higher than what is 
allowed under the spending caps in the Budget Control Act. In 
fact, spending this year is consistent with the Budget Control 
Act fully funding, and NNSA's budget request alone would 
require almost the entire increase in defense spending for all 
defense programs, including the Department of Defense.
    We will work with Senator Cochran and Senator Mikulski to 
increase the subcommittee's defense spending allocation, but 
we're going to need your help to understand the NNSA's most 
urgent priorities, and that's why we're holding this hearing. I 
would like to focus my questions on three main areas, all with 
an eye toward setting priorities. First, keeping large 
construction projects on time and on budget. Senator Feinstein 
and I have worked pretty hard on that. Two, effectively 
maintaining our nuclear weapons stockpile. And three, properly 
supporting our nuclear Navy.
    The first one: keeping the large construction projects on 
time and budget. NNSA is responsible for three of the largest 
construction projects in the Federal Government: the uranium 
processing facility in Tennessee, the MO<INF>X</INF> fuel 
fabricating facility in South Carolina, and the plutonium 
facility in New Mexico. Combined, these projects could cost as 
much as $20 billion to build. Over the past 4 years, Senator 
Feinstein and I have worked hard with the NNSA to keep costs 
from skyrocketing and to make sure hard earned taxpayer dollars 
are spent wisely. We need to make sure these projects are on 
time and on budget.
    Senator Feinstein and I have focused much of our oversight 
on the uranium processing facility, because costs had increased 
every time we would get a status update. Three years ago, we 
began holding regular meetings with the NNSA administrator and 
his team. We said we wanted 90 percent design completed before 
we begin construction. We urge the NNSA to take aggressive 
steps to get costs under control.
    The administrator asked Thom Mason, the laboratory director 
for the Oak Ridge National Lab in Tennessee to have a Red Team 
to review the project. The result is that review may be a model 
for how to keep these kinds of projects on time and on budget. 
The Red Team's report included 17 recommendations, nearly all 
of which the NNSA has now adopted to keep the uranium facility 
within a $6.5 billion budget with completion by 2025.
    Based on these recommendations, the uranium facility will 
now consist of at least two buildings, one with high security, 
one with less security, with construction of these buildings to 
begin once their design is at 90 percent. As I understand it, 
NNSA recently completed a portion of the site preparation for 
this project under budget by $10 million. That is a good start, 
and I'm sure I will hear more about that in a few minutes, but 
there's a lot more work to do.
    I'm going to ask you more today about the uranium facility, 
particularly about your schedule for completing the design and 
when you anticipate construction can begin. I also want to ask 
you about how you are applying the lessons we learned from the 
Red Team review there to other big construction projects, and 
look forward to any updates that you may be able to provide.
    General Klotz, I know you're planning to go to Tennessee 
tomorrow to see the progress. I appreciate your hands on 
approach to making sure this project is delivered on time and 
on budget.
    Now on our nuclear weapons, another large portion of the 
budget request is the work NNSA is doing to maintain our 
nuclear weapons stockpile. I want to make sure we're spending 
those dollars effectively. The budget request includes $1.3 
billion to continue the four ongoing life extension programs 
which fix or replace components in our weapons system to make 
sure they are safe and reliable. These life extension programs 
are needed, but they are very expensive, and I'll ask you today 
whether you will be able to meet your production deadlines on 
time and on budget.
    And our Navy, Naval Reactors is responsible for all aspects 
of the nuclear reactors that power submarines and aircraft 
carriers. Naval Reactors is currently designing a new reactor 
core that will not need to be refueled during the life of the 
ship. This work will save taxpayers billions of dollars, 
because it won't have to build two extra submarines to make up 
for those that are not in service when they are not being 
refueled. The small nuclear reactors that Naval Reactors 
designs have had an impeccable safety record. For more than 60 
years, there has never been a reactor accident resulting in a 
death. Also, want to hear more about your plans for storing the 
Navy's used nuclear fuel.
    We talked a lot in our hearing last week with the Nuclear 
Regulatory Commission about Yucca Mountain storing used nuclear 
fuel from commercial reactors, and I would like to hear from 
you how this issue impacts your operations.
    With that, I would recognize Senator Feinstein for her 
statement.


                  statement of senator diane feinstein


    Senator Feinstein. Thanks very much, Mr. Chairman. And I 
don't need to say what a pleasure it is to work with you. I was 
listening to your opening statement and thinking about how 
parallel our concerns are, and the meetings that we have had in 
the last 3 years to try to see that the management of these 
projects is more efficient and effective. And I think now, with 
this new secretary, we are beginning to make some progress. And 
so I so appreciate your leadership and our partnership. It's 
very special.
    This is a big increase. It is $1.2 billion over enacted 
2015 levels. I just reached back and asked the staff, and asked 
the question, have they ever gotten an increase this big? And 
the answer was, well certainly not in the last 4 or 5 years. So 
I think this increase really portends some danger for the 
nuclear program.
    I was looking at the CBO report, which points that out. 
Now, this is the projected costs of the United States nuclear 
forces 2015 to 2024. But as you know, the increase just there 
is $348 billion, according to CBO, and that is an average of 
$35 billion a year. I think we have very bright people at this 
table, and in terms of what you say, I would really like to 
know, what are we going to do to handle this? And I know there 
are programs going on to handle it, so if you could put some of 
those out on the table that we could take a look at them, that 
would be very appreciated.
    NNSA is currently undertaking three multibillion-dollar 
projects to modernize nuclear weapons infrastructure and 
recycle nuclear weapons material for peaceful use. The chairman 
talked about them, UPF in Tennessee, CMRR in New Mexico, and 
MO<INF>X</INF> in South Carolina. These projects have all seen 
large increases in their estimated costs as well as schedule 
delays. In response, the NNSA has taken a step back to re-
examine capability needs and alternative approaches.
    For example, Los Alamos has developed an incremental 
smaller scale approach to modernizing plutonium production 
infrastructure, and the Secretary of Energy has rightly made 
improving project management, as the chairman stated, more 
broadly a focus of his tenure in the Department. I view these 
all as very positive steps, but a lot of uncertainty remains.
    Two of these projects, CMRR and UPF, are still in their 
initial phases. Even though CMRR will expand use of one 
building and reuse another, NNSA may also require the addition 
of several modules for plutonium production with an as yet 
unspecified cost and schedule. The cost and schedule for UPF 
are still being developed and are expected later next year.
    So I hope, Mr. Chairman, that we can have some meetings 
when these costs are known, so that we can take a look at them 
and see how we are going to handle them in the future years.
    In fiscal year 2015, $715 million was provided to these 
three projects. In fiscal year 2016, budget request increases 
by $215 million, for a total of $931 million. So if you add up 
the fact that smaller projects, or recapitalization efforts, 
totals $117 million and $362 million respectively, we get that 
$1.3 billion figure, and it's huge. The request for life 
extension programs is that $1.3 billion, a $226 million 
increase over 2015. Now, that is going to grow.
    Last week, the chairman of the Nuclear Weapons Council, 
Frank Kendall, testified before the Senate Armed Services 
Committee, and he said this. In 2021, we are going to start 
having a problem finding ways to afford these systems. And I 
think that is probably correct, and I think we have to come to 
grips with that, and as a team, hopefully, be able to make some 
decisions which can understand that we don't know where we are 
going to be financially at that time.
    Let me call attention to two specific issues. Despite a 
$1.2 billion increase for NNSA, the science function within the 
weapons activities account sees virtually no increase in the 
President's budget request. With the end of explosive testing 
of nuclear weapons, a science-based approach is the foundation 
of our stockpile stewardship activities. Even with the science 
function in this budget request, science and engineering are 
cut in favor of computing and advanced manufacturing, and I 
think we must maintain a robust science and engineering 
capability.
    Second, the defense nuclear nonproliferation account sees a 
modest increase over last year. This is positive. But at a 
comparable level, at $1.7 billion in 2016, nonproliferation 
funding is still down, from $1.9 billion in 2014 and its high 
of $2.3 billion in 2012. So I have always thought the 
nonproliferation program was very vital, and I see it's on a 
downward slope. The Megatons to Megawatts Program is just one 
example. Ten percent of all U.S. electricity until 2019 will be 
from former nuclear weapons. Also, NNSA has so far removed or 
confirmed the disposition of 5,207 kilograms of highly enriched 
uranium and plutonium around the world.
    Some in Congress and elsewhere want to use the current 
tension with Russia to walk away from the leadership role our 
country has taken with regard to reducing proliferation 
requests. I disagree with that decision. NNSA's 
nonproliferation program will play a critical role in securing 
materials around the world, helping with peaceful use of 
nuclear power in developing countries, and fostering and 
monitoring United States nuclear technology exports. In an 
increasingly complex world, efforts to reduce nuclear risks 
deserve funding and support.
    So Mr. Chairman, thank you for holding this hearing. I look 
forward to hearing General Klotz's statement and our 
conversation that we will have this morning. So thank you very 
much.
    Senator Alexander. Thank you, Senator Feinstein. And let me 
say, as I have said many times before, how much of a privilege 
it is just to work with you. It makes life a lot easier, when 
we are approaching big, difficult problems, to have a level of 
trust and an interest in good management.
    General Klotz, at this time, we will turn to you for your 
testimony on behalf of NNSA, and after that, we will have 
questions for you and the other witnesses. Welcome.


              summary of lieutenant general frank g. klotz


    General Klotz. Chairman Alexander, Ranking Member 
Feinstein, thank you for the opportunity to present the 
President's fiscal year 2016 budget request for the Department 
of Energy's National Nuclear Security Administration.
    I'm pleased to be joined by, as you recognized, Dr. Don 
Cook, Ms. Anne Harrington, and Admiral John Richardson. We had 
provided a written statement, and I appreciate your direction 
that it be placed into the record.
    We certainly value this Committee's strong leadership in 
national security as well as its robust and abiding support for 
the mission and the people of the NNSA. Our budget request, 
which comprises more than 40 percent of DOE's budget, is $12.6 
billion. This is, as has been pointed out, an increase of $1.2 
billion, or about 10.2 percent over the fiscal 2015 and active 
level.
    This funding is extraordinarily important to NNSA's 
important and enduring missions, to maintain a safe, secure, 
and effective nuclear weapons stockpile without testing, to 
prevent, counter, and respond to the threat of nuclear 
proliferation and terrorism, and to support the capability of 
our nuclear powered Navy to project power and to protect 
American interests around the world.
    By supporting growth in all four of our appropriations 
accounts, this budget request represents a commitment by the 
Administration to NNSA's vital and enduring mission and NNSA's 
role in ensuring a strong national defense. This mission is 
accomplished through the hard work and innovative spirit of a 
very highly talented workforce, all of whom are committed to 
public service. To provide them the tools that they need to 
carry out their complex and challenging tasks, both now and in 
the future, we must continue to modernize our scientific, 
technical, and engineering capabilities and infrastructure. In 
doing so, we are mindful of our obligation to continually 
improve our business practices and to be responsible stewards 
of the resources that Congress and the American people have 
entrusted to us.
    To this end, NNSA continues to make progress on key 
surveillance and life extension programs, which directly 
support the President's direction to maintain a safe, secure, 
and effective nuclear arsenal, and funding at the 2016 budget 
request level will ensure that these key life extension program 
stay on track.
    For NNSA's important mission to reduce nuclear dangers 
across the world, the fiscal year 2016 budget request shifts 
funding for our counterterrorism and emergency response 
missions into the defense nuclear nonproliferation account in 
order to better align our funds across the spectrum of 
activities, which run from preventing, to countering, to 
responding to global nuclear dangers. Additionally, the 
nonproliferation programs have also been realigned into for 
business lines that better reflect the core competencies 
resident across that program in our labs and in our production 
facilities.
    And finally, the request for our Naval Reactors mission 
provides funding for three major initiatives, the Ohio-Class 
Reactor Plant System Development, the Land Based S8G Prototype 
Refueling Overhaul, and the Spent Fuel Handling 
Recapitalization Project in Idaho.
    For all these missions, NNSA will continue to drive 
improvements in the acquisition and project management 
practices and policies as well as ensuring Federal oversight 
across the enterprise. These highlights are just a hand full of 
the critical national security work that this budget funds. 
However, as you pointed out, the looming possibility of 
sequestration is a major threat to carrying out all of these 
missions. In developing the budget, NNSA was directed to 
request the funds that we need to accomplish the missions that 
we have been tasked to do, and this fiscal year 2016 budget 
request reflects this direction.
    Another round of sequester cuts would most certainly have a 
devastating impact on important programs and projects, 
including pushing them further out into the future or perhaps 
having to cancel some altogether. It would also have grave 
implications for the science, technology, and engineering work 
that is taking place at our laboratories and plans, work that 
underpins our nuclear security but also the broader national 
security.
    Again, Mr. Chairman, Ranking Member Feinstein, thank you 
for the opportunity to appear before you today. And we are 
looking forward to answering any questions that you may have.
    [The statement follows:]
        Prepared Statement of Lieutenant General Frank G. Klotz
    Chairman Alexander, Ranking Member Feinstein, and Members of the 
Subcommittee, thank you for the opportunity to present the President's 
fiscal year 2016 Budget Request for the Department of Energy's (DOE) 
National Nuclear Security Administration (NNSA). We value this 
Committee's leadership in national security, as well as its strong and 
abiding support for the mission and people of the NNSA.
    The President's fiscal year 2016 Budget Request for NNSA, which 
comprises more than 40 percent of the DOE's budget, is $12.6 billion, 
up $1.2 billion or 10.2 percent over the fiscal year 2015 enacted 
level. The NNSA has a unique and special responsibility for maintaining 
a safe, secure, and effective nuclear weapons stockpile for as long as 
nuclear weapons exist; preventing, countering and responding to 
evolving and emerging threats of nuclear proliferation and terrorism; 
and, supporting the capability of our nuclear-powered Navy to project 
power and protect American and Allied interests around the world. By 
supporting growth in each of our four appropriations accounts, this 
budget request represents a strong endorsement of NNSA's vital and 
enduring mission, and is indicative of the Administration's unwavering 
commitment to a strong national defense.
    The NNSA's mission is accomplished through the hard work and 
innovative spirit of a highly talented workforce committed to public 
service. To provide them the tools they need to carry out their complex 
and challenging task, both now and in the future, we must continue to 
modernize our scientific, technical and engineering capabilities and 
infrastructure. In doing so, we are mindful of our obligation to 
continually improve our business practices and to be responsible 
stewards of the resources that Congress and the American people have 
entrusted to us. The NNSA took several significant steps toward this 
objective during the past year.
    NNSA's fiscal year 2016 Budget Request reflects the close working 
partnership between NNSA and the Department of Defense (DOD) in 
providing for our Nation's nuclear deterrence capabilities and 
modernizing the nuclear security enterprise. As in last year's Budget, 
DOD is carrying a separate account in its fiscal year 2016 Budget 
Request for the out years, fiscal year 2017 and beyond, which 
identifies funds for NNSA's Weapons Activities and Naval Reactors. We 
urge this Subcommittee's support for alignment of its appropriations 
process and national defense or ``050'' allocations, including the 
subcommittee 302(b) allocations, with the President's Budget. The 
requested allocation supports NNSA and DOD priorities.
    Tough decisions and trades in fiscal year 2016 have been made to 
meet military commitments and nuclear security priorities. If the 
request is not fully supported, modernization of our nuclear enterprise 
and implementation of our long-term stockpile sustainment strategy 
could be put at risk. The program we have proposed is highly integrated 
and interdependent across the stockpile management, science and 
infrastructure accounts.
    Apart from the need for national defense allocation alignment, the 
looming possibility of sequestration is a major threat to all NNSA 
missions. The NNSA fiscal year 2016 Budget Request exceeds the caps set 
on national security spending in the Budget Control Act (BCA); but is 
necessary to meet our national security commitments. Reduced funding 
levels will place these commitments at risk. We have made some tough 
resource decisions across the NNSA, but the Secretary of Energy and I 
believe that our enduring missions are too vital to the Nation's 
security to be further constrained by the current BCA spending caps.
    Details of the fiscal year 2016 President's Budget Request for the 
NNSA follow: Weapons Activities Appropriation
    The fiscal year 2016 Budget Request for the Weapons Activities 
account is $8.8 billion, an increase of $666.6 million or 8.1 percent 
over fiscal year 2015 enacted levels. It is comprised not only of the 
Defense Programs portfolio, which is responsible for all aspects of 
stockpile stewardship and management; but also the enterprise-wide 
infrastructure sustainment activities managed by our Office of Safety, 
Infrastructure and Operations, as well as our physical and 
cybersecurity activities. It should be noted that in this budget 
request we have moved NNSA's on-going emergency response and 
counterterrorism and counterproliferation capabilities out of the 
Weapons Activities account and into the Defense Nuclear 
Nonproliferation account. This action aligns activities for preventing, 
countering and responding to global nuclear threats into a single 
account.
                       maintaining the stockpile
    Last year, we again successfully used science-based stockpile 
stewardship to certify to the President that the American nuclear 
weapons stockpile remains safe, secure, and effective-without the need 
for underground nuclear testing. It is important to periodically remind 
ourselves that we have been able to do this every year largely due to 
the investments we have made and continue to make in state-of-the-art 
diagnostic tools, high performance computing platforms, and modern 
facilities staffed by extraordinarily talented scientists, engineers 
and technicians.
    For Directed Stockpile Work (DSW), the fiscal year 2016 request is 
$3.2 billion, a $494.7 million increase over fiscal year 2015 enacted 
levels, or about 18.4 percent. Approximately $133 million of this 
increase reflects a restructuring of the accounts when compared to the 
fiscal year 2015 budget request. These changes are discussed below.
    With respect to the major life extension programs (LEP), we have 
now passed the halfway mark in the production phase of the W76-1 LEP. 
This LEP, which directly supports the Navy, is now on track and on 
budget. Our fiscal year 2016 Request of $244.0 million will keep us on 
track to complete production in fiscal year 2019.
    We are also making significant progress in the engineering 
development phase of the B61-12 LEP. The B61 is a gravity bomb 
associated with Air Force long-range nuclear-capable bombers, as well 
as dual-capable fighter aircraft. Working with the Air Force, we 
successfully completed environmental flight tests on the F-15, F-16, 
and B-2 aircraft on or ahead of schedule. The B6112 LEP will enter 
Phase 6.4 Production Engineering in 2016; and, with the $643.3 million 
requested, we will remain on track to deliver the First Production Unit 
(FPU) in fiscal year 2020.
    Based on results from the ongoing surveillance of the nuclear 
weapons stockpile performed by NNSA's laboratories and plants, the 
Nuclear Weapons Council decided that it was prudent to expand the 
planned W88 Alteration (ALT) 370 to now include replacement of the 
conventional high explosive in the warhead. The budget request reflects 
this decision and includes $220.2 million to support the FPU in fiscal 
year 2020.
    The budget request also includes $195.0 million to support the 
Nuclear Weapons Council decision to accelerate by 2 years an LEP of the 
W80 to serve as the warhead for the Air Force's Long Range Stand-Off 
system (LRSO). FPU is now slated for 2025.
    This budget request also supports our goal of dismantling all 
weapons retired prior to fiscal year 2009 by fiscal year 2022. In fact, 
we have already dismantled more than 42 percent of these weapons in 38 
percent of the time allotted. This funding will ensure that we stay on 
track to meet our dismantlement commitment.
    Within DSW, the budget request also includes $415.0 million for a 
new ``Nuclear Materials Commodities'' subprogram to support the 
investment needed in nuclear materials to maintain the viability of the 
enduring stockpile. Included in this subprogram are Uranium 
Sustainment, Plutonium Sustainment, and Tritium Sustainment which are 
all crucial to sustain our stockpile, even as we move to lower levels 
in our nuclear stockpile. Since last year, we have created and 
empowered new program manager positions to oversee each of these 
nuclear materials programs. Also included within DSW, is a subprogram 
for Domestic Uranium Enrichment. Ensuring we have a domestic uranium 
enrichment capability for national security needs is particularly 
important in maintaining a domestic source of LEU to produce tritium 
and for research reactor conversion program and eventually to produce 
HEU for Naval Reactors fuel.
    Consistent with the Consolidated and Further Continuing 
Appropriations Act for fiscal year 2015, activities formerly carried 
out under Campaigns are now included under Research, Development, Test, 
and Evaluation (RDT&E). The funding request for RDT&E is about $1.8 
billion, essentially the same as the fiscal year 2015 enacted level. 
This includes $623.0 million for the Advanced Simulation and Computing 
(ASC) Program, an increase of $25.0 million for the Advanced Technology 
Development and Mitigation (ATDM) subprogram that supports high 
performance computing; $130.1 million for Advanced Manufacturing 
Development, an increase of $22.9 million. This funding will support 
work related to electronics-based arming, fusing, and firing, as well 
as other technologies that require significant technical effort to 
ensure production readiness for manufacturing technologies needed to 
replace sunset technologies. We continue to develop and mature additive 
manufacturing technologies that can provide significant cost avoidance 
by reducing costs to prototype and manufacture tooling and certain 
weapons components. These increases are largely offset by relatively 
small decreases in the Science (-$22.5 million for a total request of 
$389.6 million), Inertial Confinement Fusion Ignition and High Yield 
Program (-$10.4 million for a total request of $502.5 million), and 
Engineering (-$4.6 million for a total request of $131.4 million) 
Programs.
    The Inertial Confinement Fusion Ignition and High Yield program has 
spearheaded ongoing improvements in both management and operational 
efficiencies at NNSA's major high energy density (HED) facilities, 
including the National Ignition Facility (NIF) at Lawrence Livermore 
National Laboratory (LLNL). As a result of these improvements, LLNL has 
been able to increase the shot rate at NIF. NNSA recently completed a 
10-year HED Science Strategic Plan to guide work in this important 
field.
    Partnering with the DOE Office of Science, NNSA continues to make 
much needed investments in exascale computing. NNSA's ASC Program 
provides leading edge, high-end modeling and simulation capabilities to 
sustain and modernize the stockpile today and into the future. The 
fiscal year 2016 Request includes $64 million for the ASC's Advanced 
Technology Development and Mitigation subprogram to pursue long-term 
simulation and computing goals relevant to the exascale computing 
needed to support the broad national security missions of the NNSA. 
Both the NNSA and DOE's Office of Science continue to collaborate with 
the Office of Science providing $209 million towards the development of 
capable exascale systems.
    Defense Programs also supports the vitality of the broader National 
Security Enterprise. An important aspect of this is investing in 
Laboratory-, Site- and Plant-Directed Research and Development (LDRD). 
Independent reviews have consistently affirmed the importance of the 
program to the long-term vitality of the labs. LDRD provides basic 
research funding to foster innovation and to attract and retain young 
scientific and technical talent. Congressional support is essential to 
sustaining this essential national capability.
    Finally, another important accomplishment within Weapons Activities 
in 2014 was the renewal of the Mutual Defense Agreement with the United 
Kingdom. Since 1958, this enduring agreement has enabled mutually 
beneficial exchange of nuclear expertise between the United States and 
UK, contributing to a long and proud history of defense cooperation 
between our two Nations. In this case, the Administration and the 
Congress worked closely together to achieve a shared goal. We are truly 
grateful for your support.
            improving safety, operations and infrastructure
    In order to support all of these critical programmatic activities, 
we are making important strides in recapitalizing our aging 
infrastructure throughout the enterprise. In August 2014, DOE and NNSA 
formally dedicated the new National Security Campus (NSC) in Kansas 
City, Missouri. The former Kansas City Plant was relocated from the 
Bannister Federal Complex, a 70-year-old facility, to the NSC with half 
the footprint and a modern operating environment. The move was safely 
and securely completed 1 month ahead of schedule and $10 million under 
budget. The NSC manufactures or purchases 85 percent of the non-nuclear 
components that make up our nuclear weapons, and thus plays a major 
role in keeping the Nation's nuclear stockpile safe, secure and 
effective.
    The fiscal year 2016 request restructures many of the activities 
formerly conducted under the Readiness in Technical Base and Facilities 
(RTBF) into the Infrastructure and Safety program. This new program 
will maintain, operate and modernize the NNSA general purpose 
infrastructure in a safe, secure, and cost-effective manner. 
Infrastructure and Safety efforts are organized around five elements--
Operations of Facilities; Safety Operations; Maintenance; 
Recapitalization; and, Line Item Construction. Together, these elements 
provide a comprehensive approach to arresting the declining state of 
NNSA infrastructure. The fiscal year 2016 request for Infrastructure 
and Safety is $1.5 billion and reflects an increase of $79.4 million 
for comparable activities from the fiscal year 2015 enacted level. This 
funding will allow NNSA to modernize and upgrade aging infrastructure 
and address safety and programmatic risks.
    We are developing a 10-year strategic plan that identifies the 
activities NNSA is undertaking to arrest the declining state of NNSA 
infrastructure, reduce Deferred Maintenance (DM), and dispose of excess 
facilities. The major elements of the plan include improving 
infrastructure decisionmaking with implementation of new, risk-informed 
analytical methods to better evaluate the ability of an asset to 
support program core capabilities; improving program management tools 
through implementation of standardized and automated processes and 
systems for scope, cost, and schedule management; accelerating 
recapitalization and construction efforts to revitalize infrastructure 
and make better use of the resources by strategically procuring common 
systems and components used across the enterprise; and shrinking the 
NNSA footprint by deactivating and disposing of excess facilities, with 
increased focus on timely deactivation and on repurposing and reuse as 
a strategy to avoid new construction. Within this 10-year plan, the 
transferring of the old Kansas City Bannister Road facility to a 
private developer to repurpose the site for local community use will 
eliminate $250 million in DM. We recognize that these goals will not be 
met quickly, and that arresting the declining state of NNSA 
infrastructure will require steady commitment at all levels of the 
organization over many years. We believe that the tools and processes 
we are developing and implementing, along with sustained investment in 
our infrastructure, will set NNSA on the right path to ensuring a 
viable, safe, and effective nuclear security enterprise well into the 
future.
    The Infrastructure and Safety program addresses the needs of 
program specific infrastructure, primarily the Uranium Processing 
Facility (UPF) and the Chemistry and Metallurgy Research Replacement 
(CMRR) project. RTBF provides a defined level of readiness and 
capability through infrastructure investments and strategy development 
that are dedicated to special nuclear material processing and inventory 
management. The RTBF program accomplishes this mission by modernizing 
stockpile stewardship and management infrastructure through capability 
investments, strategic development, and line-item construction projects 
for the sustainment or enhancement of capabilities. The fiscal year 
2016 request is $1.1 billion, with a reduction of $1.4 billion, due to 
the transfer of select activities to Infrastructure and Safety. For 
comparability purposes, the fiscal year 2016 request for RTBF is 
increased more than 50 percent to support a new source of high-purity 
depleted uranium, to realign recapitalization of Defense Programs 
capabilities through the Capabilities Based Investments (CBI), and to 
increase funding for the UPF at Y-12 to $430.0 million and the CMRR 
Project at the Los Alamos National Laboratory (LANL) to $156.0 million.
    Last year, NNSA successfully executed one of the largest and most 
complex contract transitions in the history of the Department with the 
award of a contract to Consolidated Nuclear Security to operate and 
manage both the Pantex Plant and the Y-12 National Security Complex. 
The consolidated contract was written to require efficiencies and 
improved operations as a requirement for continued performance beyond 
the initial 5-year base period. This is a departure from other 
management and operating contracts where efficiencies and effectiveness 
are considered but are not mandatory.
    Our Office of Secure Transportation (OST) provides safe, secure 
movement of nuclear weapons, special nuclear material, and weapon 
components to meet projected DOE, DOD, and other customer requirements. 
It continues to modernize assets by extending the life of the 
Safeguards Transporter and is currently looking at options for the next 
generation transporter, the Mobile Guardian Transporter. To meet an 
increasing workload, OST is planning a small increase in the number of 
Federal agents.
    The primary mission of NNSA's Office of Defense Nuclear Security 
(DNS) and the Chief Security Officer is to develop and implement sound 
security programs to protect Special Nuclear Material (SNM), people, 
information, and facilities throughout the nuclear security enterprise. 
The NNSA's Defense Nuclear Security fiscal year 2016 request is $632.9 
million. The request manages risk among important competing needs even 
as NNSA continues to face the challenges associated with an aging 
physical security infrastructure that must be effectively addressed in 
the coming years. The request includes $13 million to initiate 
installation of Argus at the Device Assembly Facility at the Nevada 
National Security Site. Argus is the enterprise security system for 
Category 1 SNM facilities that integrates access control, intrusion 
detection, and video assessment of alarms to protect and control high-
consequence assets. DNS also has a prioritized list of smaller 
infrastructure upgrade projects it will execute as General Plant 
Projects within available O&M funding, for example, lighting systems 
supporting perimeter camera assessment, replacement and upgrades to 
Argus Field Processors, replacement of ported coax cables and buried 
cable electronics that will extend lifecycles and delay total system 
replacements. DNS initiated an Enterprise Vulnerability Assessment 
process across the enterprise with a focus on standardizing how 
vulnerability assessments are conducted and site protection strategies 
are formulated.
    The Information Technology and Cybersecurity fiscal year 2016 
request is $157.6 million, a decrease of $22.1 million or about 12.3 
percent from fiscal year 2015 enacted levels. The difference is 
attributed to a one-time investment in fiscal year 2015 in the 
Infrastructure Program to implement a more secure classified computing 
environment. All activities related to the one-time increase were 
completed. Information Technology and Cybersecurity supports the 
nuclear security enterprise. This work includes continuous monitoring 
and enterprise wireless and security technologies (i.e., identity, 
credential, and access management) to help meet security challenges. In 
fiscal year 2016, NNSA plans to complete the recapitalization of the 
Enterprise Secure Network, modernize the Cybersecurity infrastructure, 
implement the Identity Control and Access Management project at NNSA 
Headquarters and site elements, and implement and coordinate all 
Committee on National Security Systems and Public Key Infrastructure 
capabilities. In addition, we will leverage the NNSA Network Vision 
framework to increase the efficiency and cost-effectiveness of NNSA 
Information Technology (IT) services.
             defense nuclear nonproliferation appropriation
    In fiscal year 2016, we have realigned the NNSA programs that 
continue to support the President's Prague Agenda to address the threat 
of nuclear proliferation and terrorism into the Defense Nuclear 
Nonproliferation (DNN) appropriation. NNSA's activities work across the 
spectrum to prevent, counter and respond to the threat of nuclear and 
radiological proliferation and terrorism. We work to prevent the 
acquisition of nuclear or radiological materials, technology, and 
expertise; we actively counter efforts to develop the materials and 
scientific knowledge needed to construct a nuclear threat device; and 
we are poised to respond to terrorist acts by searching for and 
rendering safe any such devices.
    The Defense Nuclear Nonproliferation (DNN) account request is $1.9 
billion, an increase of $325 million or about 20.1 percent from fiscal 
year 2015 enacted levels. At first glance, this figure looks like a 
very big increase but the number actually reflects a reorganization of 
our budget to include the Nuclear Counterterrorism Incident Response 
(NCTIR) and the Counterterrorism and Counterproliferation (CTCP) 
Programs from the Weapons Activities account. For comparability 
purposes, the DNN account increase is $101.0 million or over 5 percent 
above fiscal year 2015 enacted levels. Additionally, we have combined 
the NCTIR and CTCP programs into a single budget program line to 
eliminate confusion about NNSA nuclear counterterrorism programs and 
activities. We also changed the NCTIR name to Nuclear Counterterrorism 
and Incident Response Program, reflecting this realignment. The DNN 
Appropriation will now support two enduring mission areas: (1) The 
Defense Nuclear Nonproliferation Program and (2) The Nuclear 
Counterterrorism and Incident Response Program. The Nuclear 
Nonproliferation Program is also restructuring to place more emphasis 
on capabilities as opposed to specific programs. This organizational 
restructuring is reflected in the DNN budget restructuring.
    To achieve all of these mission objectives, NNSA has restructured 
the budget request under the Defense Nuclear Nonproliferation account 
as follows:
  --Material Management and Minimization
  --Global Material Security
  --Nonproliferation and Arms Control
  --Defense Nuclear Nonproliferation R&D
  --Nonproliferation Construction
  --Nuclear Counterterrorism and Incident Response Program.
    Together, this restructuring aligns funding for preventing, 
countering, and responding to global nuclear dangers in one 
appropriation.
                        nonproliferation efforts
    The fiscal year 2016 request for the DNN Program, excluding NCTIR 
and Legacy Contractor Pensions, is $1.6 billion, an increase of $67.9 
million or about 4.4 percent above fiscal year 2015 enacted levels. 
This past year was a big year for our nonproliferation efforts. Our 
Defense Nuclear Nonproliferation organization was responsible for many 
of the significant deliverables at the third Nuclear Security Summit 
held in The Hague last spring. Of particular note, Japan announced at 
the Summit that it would work with us to remove and dispose of all 
highly-enriched uranium (HEU) and separated plutonium from its Fast 
Critical Assembly. NNSA is currently working with its counterparts in 
Japan to resolve technical and logistical issues to complete this 
effort in a timely manner.
    Also during the Summit, the United States joined 22 countries in 
signing up to a ``Gift Basket'' to secure all Category 1 radioactive 
sealed sources by 2016. In the United States, there are approximately 
465 buildings with Category 1 devices. Of these, NNSA has completed 
security enhancements at 300 and is currently involved in a targeted 
outreach campaign to engage the remaining 165 buildings by the end of 
spring 2015.
    And finally, NNSA partnered with five countries to remove 190 kg of 
HEU and plutonium from civilian facilities; which brings our cumulative 
total at the end of fiscal year 2014 to an impressive 5,207 kg; this is 
more than enough material for 200 nuclear weapons. While relations with 
Russia are severely strained, we anticipate that we will continue to 
cooperate in efforts to repatriate Russian-origin weapons-usable HEU 
material to Russia.
    The Material Management and Minimization (M3) program presents an 
integrated approach to addressing the persistent threat posed by 
nuclear materials through a full cycle of materials management and 
minimization efforts. Consistent with the priorities articulated in the 
National Security Strategy of the United States and the Nuclear Posture 
Review, the primary objective of the program is to achieve permanent 
threat reduction by minimizing and, when possible, eliminating weapons-
usable nuclear material around the world. This program includes 
elements of the former Global Threat Reduction Initiative (GTRI) and 
Fissile Materials Disposition Programs. The fiscal year 2016 request 
for this program is $311.6 million. For comparability purposes, the 
request reflects an increase of $38.7 million or about a 14.2 percent 
increase above the fiscal year 2015 enacted levels. The funding 
increases are primarily for the removal of HEU from miniature neutron 
source reactors in Africa as well as preparatory activities for future 
shipments from Europe and Japan, which will proceed with appropriate 
cost-sharing.
    The Global Material Security (GMS) program supports the President's 
nuclear and radiological security agenda and the Secretary's goal of 
enhancing nuclear security through nonproliferation. We work with 
partner countries to increase the security of vulnerable stockpiles of 
nuclear weapons, weapons-usable nuclear materials, and radiological 
materials, and to improve partner countries' abilities to deter, 
detect, and interdict illicit trafficking. Elements of the former GTRI 
program, International Material Protection and Cooperation (IMPC) 
program, and Nonproliferation and International Security (NIS) program 
are being combined in GMS, in order to better integrate capabilities 
required to support DNN's enduring mission. The fiscal year 2016 
request for this program is $426.8 million. For comparability purposes 
the request reflects a slight increase of $2.5 million above the fiscal 
year 2015 enacted levels. This increase will accelerate the protection 
of International Atomic Energy Agency Category 1 radiological sources 
in order to meet the 2014 Nuclear Security Summit commitment to secure 
these sources by 2016.
    The Nonproliferation and Arms Control (NPAC) program supports the 
President's nonproliferation agenda and NNSA efforts to prevent the 
proliferation or use of weapons of mass destruction by State and non-
State actors. To carry out the goals of this program, we work with the 
International Atomic Energy Agency (IAEA) and foreign partners to build 
global capacity to safeguard nuclear materials and prevent illicit 
transfers of dual-use materials, equipment, technology and expertise. 
We also work with our partners and the IAEA to develop technologies and 
approaches to verify and monitor current and future arms control 
treaties and agreements. This funding also supports statutorily 
mandated activities such as technical reviews of export licenses and 
interdiction cases, and technical support for the negotiation and 
implementation of civil nuclear cooperation agreements (123 
Agreements), as well as international export control outreach 
activities, and activities to support and improve the execution of the 
NPAC 10 CFR Part 810 application process. The fiscal year 2016 request 
for this program is $126.7 million, and reflects a slight increase of 
$0.8 million above the fiscal year 2015 enacted level.
    The Defense Nuclear Nonproliferation Research and Development (DNN 
R&D) program supports innovative, unilateral and multi-lateral 
technical capabilities to detect, identify, and characterize: (1) 
foreign nuclear weapons programs, (2) illicit diversion of special 
nuclear materials, and (3) nuclear detonations. To meet national and 
Departmental nuclear security requirements, DNN R&D leverages the 
unique facilities and scientific skills of the Department of Energy, 
academia, and industry to perform research, including counterterrorism-
related R&D. DNN R&D conducts technology demonstrations, and develops 
prototypes for integration into operational systems. The fiscal year 
2016 request for this program is $419.3 million, a $25.9 million 
increase or about 6.6 percent above fiscal year 2015 levels. Increased 
funding is requested for nuclear and energetic materials 
characterization experiments and development of advanced diagnostic 
equipment capabilities, for long-range nuclear detonation detection, 
and technical forensics research. This increase over fiscal year 2015 
levels is partially offset by a return to baseline funding for the 
Proliferation Detection subprogram after a one-time Congressional 
increase in fiscal year 2015 for test bed development and field 
experiments.
    Nonproliferation Construction consolidates construction costs for 
DNN projects previously contained within each program budget. 
Currently, the MOX Fuel Fabrication Facility (MFFF) is the only project 
in this program. The fiscal year 2016 request for MFFF is $345 million 
which is the same as the fiscal year 2015 enacted level. The National 
Defense Authorization Act for fiscal year 2015 and the Consolidated and 
Further Continuing Appropriations Act for fiscal year 2015 directed the 
Department to conduct additional analyses of the MFFF construction 
project. These analyses will include independent cost and schedule 
estimates, and examination of alternative approaches for disposition of 
the 34 metric tons of weapon- grade plutonium and their relationship to 
the Plutonium Management Disposition Agreement (PMDA). The Department 
has requested Aerospace Corporation, a federally funded research and 
development center, to perform these analyses. They will be completed 
during fiscal year 2015, and will inform a final decision on the path 
forward. The fiscal year 2016 request emphasizes that while the 
Department continues to evaluate disposition paths (including the MFFF) 
to determine the most responsible path forward, any viable alternative 
will require a significant amount of funds to implement.
            nuclear counterterrorism and emergency response
    The fiscal year 2016 Request consolidates counterterrorism and 
emergency response funding into a single Nuclear Counterterrorism and 
Incident Response line in the amount of $234.4 million.
    Within NCTIR, the Nuclear Counterterrorism Assessment program 
represents the primary scientific program to assess the threat of 
nuclear terrorism and develop technical countermeasures against it. The 
knowledge generated under this program ensures that NNSA's technical 
expertise on nuclear threat devices informs DOD and FBI emergency 
response capabilities. We have taken steps to address funding 
reductions to the nuclear counterterrorism activities. Over the last 2 
years these activities, formerly known as Counterterrorism and 
Counterproliferation within the Weapons Activities appropriation, have 
been funded at a level significantly below the requested amount--70 
percent of the Request in fiscal year 2014 and 60 percent in fiscal 
year 2015. The fiscal year 2016 request would dedicate $57.8M to 
Nuclear Counterterrorism Assessment in support of improvised nuclear 
device analysis. Additionally, the request includes funds within 
Defense Nuclear Nonproliferation R&D for materials characterization 
experiments and other research, which supports nuclear counterterrorism 
and incident response missions. Full funding of both lines will make it 
possible to continue NNSA's vital counterterrorism work at the national 
laboratories.
    NCTIR continues to work domestically and around the world to 
improve preparedness and emergency response capabilities. Its expert 
scientific teams and equipment provide a technically trained, rapid 
response to nuclear or radiological incidents worldwide. NCTIR assesses 
nuclear or radiological threats and leverages that knowledge to provide 
contingency planning and training to support national and international 
counterterrorism and incident response capabilities. In 2014, NNSA's 
emergency response teams deployed more than 100 times in support of law 
enforcement and for major public events, such as the Super Bowl, and 
conducted five large-scale field exercises with partners from the FBI, 
DOD, and FEMA In addition, they deployed over 70 times in support of 
DHS Domestic Nuclear Detection Office support to State and local first 
responders. Internationally, NNSA conducted 16 training courses to 
improve its foreign partners' emergency management capabilities and 
continued to work bilaterally with Israel, Vietnam, Cambodia, Thailand, 
Chile, China, Mexico, Argentina, Brazil, Taiwan, Canada, France, 
Jordan, the Nordic countries, Armenia and Kazakhstan. New programs were 
also started with Romania, Belarus and the Philippines. These 
initiatives represent our effort to create a truly global defense 
against the threat of nuclear terrorism.
    NCTIR will also continue the initiative to equip cities with 
stabilization equipment and training, to ensure a prompt and effective 
response to nuclear terror threats.
    NCTIR also executes the DOE's Emergency Management and Operations 
Support program that manages the Emergency Operations Centers, 
Emergency Communications Network, and Continuity Programs for all of 
DOE, including NNSA.
                      naval reactors appropriation
Advancing Naval Nuclear Propulsion
    During the past year, NNSA helped celebrate the 60th Anniversary of 
the USS NAUTILUS first getting underway on nuclear propulsion. The 
Naval Nuclear Propulsion program pioneered advances in nuclear reactor 
and warship design--such as improving reactor lifetimes, increasing 
submarine stealth, and reducing propulsion plant crewing. An example is 
the technology being developed by Naval Reactors that will enable the 
Ohio-Class Replacement submarine to be designed for a 40-plus year 
operational life without refueling, resulting in significant savings.
    During 2014, Naval Reactors continued its record of operational 
excellence by providing the technical expertise required to resolve 
emergent issues in the Nation's nuclear-powered Fleet, enabling the 
Fleet to steam more 2 million miles. Through the work of its laboratory 
and highly skilled personnel, Naval Reactors also advanced the Ohio-
Class Replacement and the S8G Prototype Refueling projects as well as 
initiating integrated testing of the lead A1B reactor plant for the 
next generation FORD-class aircraft carrier.
    It is generally not well-known that if anything goes wrong with a 
reactor on one of the Navy's nuclear carriers or submarines while they 
are at sea, Naval Reactors' cadre of experts provide around-the-clock 
technical support, and can often resolve the problem and prevent the 
ship from having to return to port to be checked out and repaired-- 
which would be quite costly and disruptive to the Navy's deployment 
schedules.
    The budget request for Naval Reactors is $1.4 billion, an increase 
of $141.6 million, about 11.5 percent from the fiscal year 2015 enacted 
level. The request includes the base funding required to safely 
maintain, operate and oversee the Navy's 83 nuclear-powered warships, 
constituting over 45 percent of the Navy's major combatants. The 
increase supports three high priority activities: $186.8 million to 
continue development of the advanced Ohio-Class Replacement reactor; 
$133 million to continue preparations for the refueling and overhaul of 
the Land-Based Prototype reactor plant; and $86 million to continue the 
design work of the Spent Fuel Handling Recapitalization Project started 
in fiscal year 2015. To this end, we would like to thank the 
Subcommittee's support for appropriating $70 million for Spent Fuel 
Handling Recapitalization Project in the fiscal year 2015 enacted 
budget. These activities are essential to maintaining a credible sea-
based strategic deterrent, to maintain the research and training 
capabilities of the Land-based Prototype, and to maintain the 
capability to safely inspect, store and package naval spent nuclear 
fuel.
            nnsa federal salaries and expenses appropriation
    NNSA Federal Salaries and Expenses (FSE) Request is $402.7 million, 
essentially equal to the rate of operations in fiscal year 2015, but 
8.9 percent above the fiscal year 2015 enacted level. The Request 
provides funding for 1,690 full-time equivalents (FTEs) and support 
expenses needed to meet mission requirements. We are actively engaged 
in hiring to that number in a thoughtful and strategic manner. I would 
note that the Request represents an increase of only $1.5 million from 
the fiscal year 2015 planned execution level of $401.2 million. This is 
due to the fact that the fiscal year 2015 enacted level was 
significantly below the request and we will need to use over $30 
million of planned carryover to sustain the currently projected 
operations of the NNSA Federal workforce. We built up that reserve 
through prudent planning and execution to enable us to pay for large 
one-time costs, such as the movement of much of our Federal workforce 
in Albuquerque into newer leased space. The increase includes a 1.3 
percent cost of living adjustment and benefits escalation, additional 
support to stand up the Office of Cost Estimation and Program 
Evaluation (CEPE) office in accordance with Section 3112 of the fiscal 
year 2014 National Defense Authorization Act (NDAA), and funding to 
improve financial systems integration within the nuclear security 
enterprise in accordance with Section 3128 of the fiscal year 2014 
NDAA.
    In fiscal year 2016, NNSA will continue its on-going efforts to 
plan strategically to meet current and future workforce needs by 
analyzing how evolving missions are affecting job requirements. 
Reshaping of the workforce over the next several years will be 
essential, including obtaining both the right staffing size and skill 
sets. NNSA will also continue to identify efficiencies, particularly in 
travel and support services, to provide a lean and efficient 
organization and to support the President's Executive Order ``Promoting 
Efficient Spending''.
                        management & performance
    To enhance our ability to carry out our mission and execute this 
budget request, we will continue to focus on improving our project 
management and cost estimating capabilities. In keeping with the 
Secretary of Energy's increased focus on Management and Performance, 
the NNSA is committed to manage its operations, contracts and costs in 
an effective and efficient manner. The NNSA's Office of Acquisition and 
Project Management (APM) is driving continued improvement in contract 
and project management practices. APM is leading the NNSA's effort to 
deliver results by instituting rigorous analyses of alternatives, 
providing clear lines of authority and accountability for Federal and 
contractor program and project management, and improving cost and 
schedule performance. NNSA participates in the Secretary's Project 
Management Risk Committee as a means to institutionalize and share best 
practices across the Department.
    We have used strategic partnerships with the National Laboratories 
to rethink some of our most challenging projects. As a result of the 
Red Team review of the UPF at the Y-12 National Security Complex, led 
by the director of the Oak Ridge National Laboratory, and a similar 
approach to the Chemistry and Metallurgy Research Replacement (CMRR) 
Facility capability at Los Alamos National Laboratory, we are 
developing a disciplined, modular approach for both sites that will 
remove risks early in the process, and establish a well-defined cost 
and schedule, both of which were lacking in earlier efforts. This 
process will be an important and recurring project management theme at 
the NNSA and across the Department of Energy.
    The CEPE was established in September 2014 pursuant to the fiscal 
year 2014 National Defense Authorization Act. This legislation 
recognized the effort to improve cost estimating that the NNSA had 
already started. The CEPE office is a prime example of actions taken to 
improve our cost estimation efforts. Forging a strong partnership with 
the Department of Defense (DOD) Office of Cost Assessment and Program 
Evaluation (CAPE), including joint training activities with CAPE, we 
have made good progress in establishing CEPE as an independent office. 
CEPE will provide independent cost estimating leadership, rigorous 
program analysis, and prudent fiscal guidance. Getting CEPE fully 
functional is a high priority for NNSA, and we will closely monitor its 
progress as it grows into its full potential over the next few years.
                               conclusion
    The NNSA executes vital missions to ensure nuclear security at home 
and abroad. We do this by delivering the technology, capabilities and 
infrastructure essential to a 21st century national security 
organization. Our workforce continues to rise to the challenge and 
deliver mission effective and cost efficient nuclear security solutions 
critical for the NNSA to succeed in today's fiscal climate.
    In closing, I would also like to mention that the President's 
Budget Request is just the first in a series of documents slated for 
release this spring. The most important of those yet to be released is 
the NNSA Strategic Plan, last updated in May 2011. The goal of this 
document is to provide a single integrated guidepost for NNSA's 
leaders, our partners at the labs and plants, and Congress and our 
external stakeholders. The new strategic plan will articulate a clear 
direction and mission to everyone--no matter their rank or position. 
Also to be released is the Congressionally-mandated Stockpile 
Stewardship Management Plan (SSMP) which details NNSA's multi-year plan 
for delivering a safe, secure and effective nuclear stockpile. And for 
the first time, we plan to release a companion plan to the SSMP, 
tentatively titled, ``Prevent, Counter and Respond'' to address our 
plans for nonproliferation, counterterrorism and emergency response 
programs. Finally, a report is being prepared for Congress in response 
to the Final Report from the Congressional Advisory Panel on the 
Governance of the Nuclear Security Enterprise, co-chaired by Norm 
Augustine and Admiral Rich Mies.
    Again, thank you for the opportunity to appear before you today.

                      URANIUM PROCESSING FACILITY

    Senator Alexander. Thank you, General Klotz. We will begin 
five-minute rounds of questions, and I'll begin.
    General, I would like to start with questions in this round 
devoted to the uranium facility, where you're going tomorrow. 
Am I correct that you're able to carry appropriated funds over 
from 1 year to the next?
    General Klotz. Yes, we are.
    Senator Alexander. On that facility. And one of the 
complaints we've sometimes had about inefficiency is that the 
jerky quality of the appropriations process sometimes cause 
wasted money, right?
    General Klotz. It does.
    Senator Alexander. So having a sustainable flow of dollars 
based upon a plan can help save money as well by speeding 
things up and avoiding the jerkiness of the process.
    General Klotz. You're absolutely right, Senator.
    Senator Alexander. The budget request for this year is $430 
million. What do you need that much money for this year?
    General Klotz. Well, in the coming year, we will use this 
funding to develop the detailed design and safety analysis for 
the three principal facilities which we will ultimately 
construct. That's a mechanical and electrical building, it's a 
salvage and accountability building, and it's the main process 
building. It will also allow us to initiate the last phase of 
some site preparation activities, including large-scale 
excavation and backfill, in order to make the site ready to 
start facility constructing activities in fiscal year 2017.
    Senator Alexander. So it's all design and site preparation, 
is that correct?
    General Klotz. Yes, sir.
    Senator Alexander. How----
    General Klotz. Excuse me, Senator. There will also be some 
long lead procurement things for specialty equipment, like the 
specialized glove boxes that are necessary to work with net 
radioactive materials. Those are very highly complex pieces of 
equipment that require long lead times, so we need to begin the 
process of procuring those.
    Senator Alexander. When will the design of these buildings 
be 90 percent complete?
    General Klotz. We expect, on the current schedule, for that 
to being during fiscal year 2017.
    Senator Alexander. And can you confirm that the designs of 
the uranium buildings will be 90 percent complete before the 
construction begins?
    General Klotz. Yes. For those three facilities, which are 
the nuclear facilities associated--for the uranium processing 
facility, we will be 90 percent complete before we begin 
construction in accordance with our own Department of Energy 
orders, 413.3B to be precise, that we follow very carefully.
    Senator Alexander. So 2017 would be the date, the estimated 
date, for 90 percent design completion.
    General Klotz. Yes, sir.
    Senator Alexander. And based on that date, will the 
buildings be completed on time to meet your commitment to be 
operational by 2025?
    General Klotz. Yes, sir. It's still our intent to be on 
track to have this work done, be out of building 9212, which, 
as you know, is the oldest facility that we have there, by 
2025, at a cap of $6.5 billion.
    Senator Alexander. Well, that was going to be my last 
question. Are you still on track to finish the facility under 
the $6.5 billion cost cap?
    General Klotz. Yes, sir, we are.
    Senator Alexander. Well, I thank you for that. And Senator 
Feinstein and I have been pretty aggressive the last 2 or 3 
years on that. And I appreciate the response of NNSA, its work, 
and that of the Red Team, because we basically have an 
agreement, as I understand it, that construction won't begin 
until we're 90 percent complete with design, and you said that 
is expected to be in 2017, that the buildings will be completed 
by 2025, and the budget cap is $6.5 billion or less.
    General Klotz. Yes, sir. But it's important that we 
continue to do some of the site preparation work that is 
already underway. In fact, one of the reasons for going to Oak 
Ridge tomorrow is to celebrate the completion of the first 
subproject that we had in terms of preparing the site for the 
construction of these three facilities. And in fact, we had 
budgeted $65 million to do some road work associated with the 
vehicles that will have to come in and out of the construction 
site. We have done some grading. We've done potable water 
lines. And as I said, we budgeted $65 million for that, and it 
came in significantly below that.
    Our next step in this process, which we are ready to begin 
immediately, is to do what we call site infrastructure and 
services subproject. Again, these are the things that any large 
construction project would have to do. For instance, we will 
need to put a concrete batch plant on the facility, and a very 
unique concrete batch plant, because this has to pour nuclear 
qualified concrete. As any construction project, we'll need to 
build construction support buildings to house the people who 
are doing work there, which will ultimately be 1,700 
construction people doing that. And we estimate that that will 
be a total of $78 million for a total project cost for this 
particular aspect of the work. And as I said, we're ready to 
start immediately, and we expect to have that completed in the 
spring of 2018.

                                 SAFETY

    Senator Alexander. Well, my time is up, but I'm going to 
ask this question, because it involves both Senator Feinstein 
and me. I celebrate any example of your coming in under budget. 
In multibillion-dollar projects, even $10 million is an 
encouraging sign to me. And I like the idea that there seems to 
be now clear accountability, someone's on the flagpole, for 
meeting the goals that we have. We use the example of the 
nuclear Navy. My staff reminded me that not only has the 
nuclear Navy not had a reactor accident resulting in a death, 
it hasn't had a reactor accident. Am I correct about that?
    Admiral Richardson. Yes, sir, that's true.
    Senator Alexander. Over 60 years. And a lot of that comes 
because Admiral Rickover, who I believe interviewed you as 
well, Mr. Richardson, is that----
    Admiral Richardson. Several times, Senator, yes, before I 
got it right.
    Senator Alexander. And he probably told you that, if you 
had a problem with a reactor, your career was over. Did he say 
something like that?
    Admiral Richardson. So that's a tenet of our program at 
every level. Yes, sir.
    Senator Alexander. So this accountability is important. So 
one question would be, we've had meetings, Senator Feinstein, 
with the accountability team at the uranium processing plant. I 
wanted to suggest that maybe a good schedule for that might be 
twice a year. We could do it more often, if you would like. And 
you might suggest to us when it would be useful, most useful to 
us and to you, to have just an informal meeting where we get an 
assurance that we're on time and on budget.
    Senator Feinstein. With the head of the project.
    Senator Alexander. With the head of the project. So will 
you think about that and suggest to us whether twice a year 
with the head of the project sounds about right? And if so, 
what times of the year would make the most sense?
    General Klotz. Yes, sir. And thank you so much for that 
offer, because we have really benefited from your strong 
leadership, your insight, and your counsel, as we've moved 
forward through this over the last couple of years. So we will 
work with your staff and find the time.
    I know you've got a very busy hearing schedule to finish. 
And we would like to get in sooner rather than later to do 
that. We're anxious to let you know the issues associated with 
this particular project, the successes as well as the 
challenges that lie before us. I think it's a good news story. 
As I said, we benefit from your counsel.
    Senator Alexander. Thank you. Senator Feinstein.
    Senator Feinstein. Thanks very much. I hope to cover two 
subjects in my 5 minutes. One is the hedge, and the second is a 
new nuclear cruise missile.

                       NUCLEAR WEAPONS STOCKPILE

    I wrote an op-ed which was in the Washington Post on 
December 3 of last year on the hedge, and I just want to read a 
small part from it.
    Of our stockpile of 4,804 weapons, only 1,600 are currently 
deployed, which means there are 3,204 backup weapons. We 
maintain this hedge in case of problems with the deployed 
weapons or if world events require additional deployments. 
Having reserve weapons may be smart policy, but maintaining two 
spares for each deployed weapon is excessive.
    I would like your reaction to that, anyone on the panel, 
and I would like your assessment of what could be saved if the 
hedge were cut in half.
    General Klotz. Let me, if I could Senator--thank you for 
the question--make a general statement, and then I'd like to 
pass it over to Dr. Cook, who has responsibility for all the 
weapons activities within NNSA, for a more refined answer than 
I'll be able to provide.
    The whole objective of the campaign of life extension 
programs we have for the existing weapons is not only to 
sustain their life, but in the process, we will reduce the 
number of weapons which we feel is prudent to have in terms of 
hedge capabilities. That's the case with both the weapons that 
will go on the sea launch, ballistic missiles, as well as the 
gravity weapons we have. So that's part of our overall 
strategy, that as we prepare these weapons to be extended 
another couple of decades beyond which their original design 
life is, we are looking to reduce the overall size of the 
stockpile, the hedge requirements, but also the amount of 
special nuclear material that makes up the entire stockpile. 
Don.
    Mr. Cook. Thank you very much for the question, Senator. 
It's important to realize that NNSA executes and NWC approved 
program, so they are partners in this. With regard to the 
hedge, it is, in fact, a technical hedge, as you described, and 
we are on a path to get reductions through appropriate 
modernization via life extensions. That will give us increased 
confidence that we can reduce the hedge. These decisions are 
made within the entity that we work with on the DOD side.
    To support what the administrator said, as a result of 
doing the W76 life extension, for example, by the time we 
conclude that, just a few years from now at the end of 2019, we 
will have reduced the number of W76s by a full factor of two. 
The 3 plus 2 strategy heads toward three ballistic systems, 
that's a reduction from four, and just two elements in the air 
carried leg, a modern gravity bomb, the B61 Mod 12, and the 
modern cruise missile, the W80-4.
    Again, as the administrator said on a few more details, 
when we complete the B61 Mod 12, and we'll complete that in 
fiscal 2020, the time right now is March 2020, we will again 
have reduced the number of bombs by a factor of two. We will 
have reduced the special nuclear material by a larger amount 
than that, because we set the stage for the retirement of the 
B83--1, the last megaton gravity bomb in the American arsenal. 
As a result then, we've reduced the amount of special nuclear 
material in the bomb leg, by more than 80 percent.
    So those are also key to having greater confidence in the 
ability of those systems to work. And as that is achieved, then 
the technical hedge will be reduced. As an example, we are 
ahead of by our dismantlement goals. We are able to take, as 
time goes on, more dismantlement work load beyond 2022, which 
is where we have it planned today.
    Senator Feinstein. I very much appreciate the fact, Dr. 
Cook, that you're looking at it.
    Mr. Chairman, I'd like to have a classified briefing on 
that subject, because I have some questions about it, and maybe 
you'd like to join me.
    Senator Alexander. Well, I would join you. I read your op-
ed, and those are very appropriate questions, important to our 
national security, and they cost a lot of money. And so I'd 
like to fully understand it, too, so why don't we schedule 
that?
    Senator Feinstein. That would be excellent. And include in 
it the B61 and the number of B61s we have.

                         NUCLEAR CRUISE MISSILE

    The next question is, why do we need a new nuclear cruise 
missile? It's a $186 million increase, I think, over the 2015 
level of $9 million, and the total cost runs $7 billion to $10 
billion, and I know of no compelling case. So if there is one, 
maybe you could relate it to us.
    General Klotz. Well, thank you, Senator. In the same Senate 
Armed Services Committee hearing that you referenced earlier, 
the one that The Nuclear Weapons Council Chairman, Frank 
Kendall, headed up, Admiral Cecil Haney, who is also the 
Commander of U.S. Strategic Command, made the case this way. 
The Air Force has had a cruise missile, the air-launched cruise 
missile, for some decades. That missile, the missile itself, 
not the warhead which we have responsibility for, but the 
missile itself, is starting to show the signs of age, and that 
is raising concerns about the long-term reliability of the 
missile. There are also some aging concerns associated with the 
support equipment that's associated----
    Senator Feinstein. Could I stop you just for a minute?
    General Klotz. Yes, ma'am.
    Senator Feinstein. How old is the missile when it begins to 
show age?
    General Klotz. I'd have to get back to you on the specific 
life.
    Senator Feinstein. If you would, I'd appreciate it.
    General Klotz. Yes, we'll get back.
    Senator Feinstein. Thank you.
    General Klotz. Yes, we will talk to our friends in the Air 
Force about that. The other issue that Admiral Haney expressed 
concern about was increasing sophistication of air defenses 
across the world and making sure that we have an air-launched 
cruise missile capability that can deal with the types of 
threats--and again, we can include that in our classified 
discussion later.
    We, at the NNSA, have a responsibility, obviously, for the 
warhead that would go on a new Air Force cruise missile, which 
they refer to as the Long-Range Standoff Capability System. So 
we have, this past year, made a selection that we would use a 
warhead from the family of warheads that the current air-
launched cruise missile uses. We are on a path to have that 
first production unit of that particular warhead ready in 2027.
    A decision was taken in the Nuclear Weapons Council, and 
subsequently at higher levels within the Executive Branch, that 
we ought to move the date for the first production unit of that 
warhead 2 years to the left, to 2025, based on what the 
military saw as a requirement for----
    Senator Feinstein. Is to the left, is that----
    General Klotz. I'm sorry, 2 years earlier.
    Senator Feinstein. Thank you.
    General Klotz. I apologize. And so that explains a 
significant portion of the increase in the money that we have 
requested for the warhead work, the life extension program that 
would support the Air Force's Long-Range Stand-off System.
    Mr. Cook. If I could follow up. Because of 2014 has elapsed 
and the first production unit is moved up 2 years, in fact, 
today, we are 3 years shorter within the first production unit. 
What we learned on the W76 and the B61 programs was that we had 
funded tech maturation later in the life extension, and it 
should have been done earlier. In fact, GAO (Government 
Accounting Office) did a report on the life extension programs, 
and they especially----
    Senator Feinstein. Can I stop you?
    Mr. Cook. Surely.
    Senator Feinstein. Tech maturation?
    Mr. Cook. I'm sorry. Technology maturation for the 
componentry and all the elements of the system really means 
that they are mature enough to put into a committed life 
extension program. In other words, we've resolved all the 
difficulties, and we can confidently, on both the cost 
estimates----
    Senator Feinstein. Are you saying that came earlier than 
you thought?
    Mr. Cook. No. We did it later in W76 and in the B61, and we 
paid for that through having to scramble later in the life 
extension program. When the General Accountability Office 
reviewed those two LEP's and the three plus two strategy and 
where we're going, they suggested that we fund technology 
maturation efforts as early as we could. And so, in fact, just 
as you've said, while we had $9 million in 2015 and we're in 
the first phase of a study to get the requirements right at 6/
1, in July of this year, we moved to the analysis of 
alternatives and conceptual development.
    Our earlier plan had been $28 million for 2027 first 
production unit, but because that was moved up 2 years, we 
requested an additional $167 million for a total of $195 
million.
    Senator Feinstein. Well, my number is wrong. I said $186 
million. It's $195 million?
    Mr. Cook. One hundred ninety-five million dollars, an 
increase from last year's FY NSP for year 2016 of $167 million.
    Senator Feinstein. Big jump. Thank you.
    Mr. Cook. Yes. Yes.
    Senator Feinstein. Thank you, Mr. Chairman.
    Senator Alexander. Sure. Thank you, Senator Feinstein. Very 
helpful. And we'll schedule that hearing. That would be helpful 
for both of us, I think.

                   NAVAL REACTORS--SPENT FUEL STORAGE

    Let me shift gears, Admiral Richardson. Let's talk a little 
bit about Naval reactors. We talked two weeks ago, the big 
thing for you in this budget is a new facility to inspect and 
package that used nuclear fuel that comes to Idaho from the 
reactors. That's a subject that Senator Feinstein and I have a 
lot of interest in, is basically, you bring the fuel to Idaho, 
and you need a facility to put it into dry cask storage, and 
then the dry casks are stored temporarily in Idaho until a 
repository is open to which they can be transferred, is that 
correct?
    Admiral Richardson. Yes, sir, Senator. That's a very 
important facility for our program, as you said, because we 
take all of our spent fuel from all of the submarines and 
carriers and send it to Idaho in containers. And at that 
facility, we have sort of a shipping and receiving element, 
where we take the fuel from the ships, we bring it into a pool 
for radiological reasons, and we do processing of those cores 
in the pool, and then eventually transition the spent reactor 
cores into dry storage, where we store them there----
    Senator Alexander. How long are the rods typically in the 
pool?
    Admiral Richardson. It's an interesting question, because 
we're really sort of making up for time now as we move material 
through the pool and into dry storage. But we've got an 
agreement with the State of Idaho to make that process and do 
that transition in less than 6 years, and that's an executable 
program for us.
    Senator Alexander. You mean the material arrives, and 
within 6 years, it's in a dry cask, is that what you're saying?
    Admiral Richardson. Exactly. Yes, sir. We're processing a 
lot of legacy fuel, but that's a good number in terms of the 
capability of the system.
    Senator Alexander. You also have an agreement with the 
State of Idaho to remove all those dry casks by 2035, is that 
right?
    Admiral Richardson. Yes, sir. Our agreement with the State 
of Idaho really has sort of two fundamental elements to it. One 
involves exactly what we just talked about, the throughput of 
the material through the pool and into dry storage, and we are 
committed to take that inventory that we have right now, the 
current inventory, and move all of that into dry storage by 
2023. And then for the course that we receive after that, we 
have that 6 year commitment to move them through the pool and 
into dry storage in 6 years. So we will have eliminated our 
backlog by 2023, and be on that 6-year thing.
    Senator Alexander. So step one is to get everything into 
dry storage within 6 years.
    Admiral Richardson. Yes, sir.
    Senator Alexander. But then step two is to get it all out 
of Idaho, right?
    Admiral Richardson. Yes, sir.
    Senator Alexander. When is that supposed to be?
    Admiral Richardson. The second element of our commitment 
involves shipment to an eventual repository.
    Senator Alexander. Yes, well, where are you going to take 
it?
    Admiral Richardson. Sir, that remains to be seen.
    Senator Alexander. Yes. I had not understood, the relative 
amount of material is smaller than I thought. I mean, compared 
to the amount of the number--Senator Feinstein, I think you 
might be interested in this, too. The material we have from our 
commercial reactors is quite a bit of material. Sometimes, it's 
described as nearly enough to fill up Yucca Mountain. But the 
amount of material that goes into dry casks from our reactors 
is relatively small space, is that--how would you describe 
that?
    Admiral Richardson. Yes, sir. We have about 30 tons of 
heavy metal in Idaho right now of that type of material. That 
represents about--well, you have 60 percent of that right now 
in dry storage. The rest of it is moving through, as I said. 
That's about 180 naval cores in dry storage, and those are 
loaded into 110 casks. Those casks are ready for shipping when 
a repository or interim storage facility is ready. But in 
total, we estimate that that total inventory is really less 
than 1/10 of 1 percent of the Nation spent fuel.
    Senator Alexander. Yes, so 110 casks right now.
    Admiral Richardson. Yes, sir.
    Senator Alexander. You still need a permanent repository to 
store your fuel.
    Admiral Richardson. Senator, in order to meet our current 
commitments with the State of Idaho, we have to be ready to be 
among the earliest shipments to go when that repository is 
ready, and then all of our spent fuel that arrives by 2026 has 
got to be out of the State by the year 2035.
    Senator Alexander. And your dry casks can go to the same 
kind of repository that a dry cask could from a commercial 
reactors used fuel, is that right?
    Admiral Richardson. Yes, sir.
    Senator Alexander. It could go to Yucca Mountain or to one 
of the repositories that we're envisioning through the 
legislation Senator Feinstein and I are working on.
    Admiral Richardson. Yes, sir. We stay very engaged in those 
conversations with the aim of making our casks ready to be 
received by that facility.
    Senator Alexander. If there were a private repository, not 
operated by the Department of Energy but licensed by the 
Nuclear Regulatory Commission, that was willing to take your 
used fuel, would it be appropriate to use such a repository for 
that?
    Admiral Richardson. Sir, if it had the appropriate 
certifications and licensing, that would be potentially an 
option.
    Senator Alexander. Yes, there's one license today, but it's 
not usable. That's in Utah. But in our hearing with the Nuclear 
Regulatory commissioners last week, we heard about a proposed 
application from West Texas which would be a privately operated 
repository. First, it would have to be licensed by Nuclear 
Regulatory Commission. But theoretically, if it's licensed by 
the NRC, you don't think of a reason why you could not ship 
your dry casks there.
    Admiral Richardson. Yes, sir. As long as it's appropriately 
certified, nothing comes to mind that would prevent us from 
using a facility like that. Again, we would be engaged in the 
details of that decision.
    Senator Alexander. Senator Feinstein, I don't know if 
you've heard him say, the Navy's dry casks in Idaho are about 
1/10 of 1 percent the size of the used fuel mass from the 
commercial reactors in the country. So it's not very much by 
space.
    Admiral Richardson. Yes, sir.
    Senator Alexander. Senator Feinstein and I see we're joined 
by the Senator from Oklahoma, and we'd be glad to put you in 
the rotation after Senator Feinstein if you'd like.
    Senator Feinstein. Thanks very much, Mr. Chairman. I wanted 
to spend a few minutes on the National Ignition Facility at 
Livermore.

                       NATIONAL IGNITION FACILITY

    On February 6, I sent the Secretary a letter on the use of 
plutonium at the National Ignition Facility, seeking assurance 
regarding the necessity for such experiments and the safety 
precautions for workers and the public. I received the response 
yesterday, and I would like to put that letter, dated March 9, 
from Secretary Moniz into the record, Mr. Chairman.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    

    Senator Feinstein. Thank you very much. Let me quote from 
the letter. Among the capabilities that the NIF brings to 
stockpile stewardship, which is its primary mission, is the 
ability to study materials compressed to extremely high 
pressures. No other platform can reach the pressures that the 
NIF can attain, and plutonium experiments in this regime are 
providing invaluable insights required to underpin the codes 
and models used to assess the performance and safety of our 
Nation's nuclear weapons stockpile.
    And then regarding the approval of these experiments, Dr. 
Donald Cook approved conducting plutonium experiments at the 
NIF after assessing myriad factors, including the technical 
benefits and technical risks, the risk assessment and risk 
management approach used by LLNL and the incremental costs 
associated with these experiments.
    Now, I asked a question about safety, and that is the use 
of plutonium in that specific facility. And what the next 
paragraph states is that workers have been trained and 
extensive reviews were conducted to verify that the staff 
procedures and safety systems were ready to proceed prior to 
the planned experiments. And then it goes on to say, the amount 
of plutonium used in these experiments is very small. In the 
highly unlikely event of an accidental release, exposure to an 
individual standing at the site boundary would be a small 
fraction, less than .005 percent of the dose that individuals 
would receive on a flight from San Francisco to Washington, and 
less than .03 percent of the dose that an individual would 
receive from a dental x-ray.
    So I take you at your statement with respect to the safety 
aspects of this. I have been concerned about Livermore being 
able to reach its purpose. It's a very expensive facility. And 
I wanted to spend a moment to see what you could tell me and 
the chairman and the Senator about the likelihood of these 
experiments being successful.
    Mr. Cook. Well, thank you for the question. It's very well 
stated. I appreciate your laying out the background that was in 
the exchange of letters on safety.
    On the front of how well NIF is being used, there was, 2 
years ago, an effort to broaden the base of the use of NIF 
comprehensively to the stockpile stewardship programs, that it 
was not solely devoted to an attempt at achieving ignition, and 
ignition and a drive toward it remains a core part of the 
program.
    But we had years of experiments built up with regard to 
materials and the physics of nuclear weapons at the highest 
pressure regimes, as you said, because that understanding is 
the core research development, understanding that we need to 
avoid ever having to return to underground testing. So for 
example, today, more than half of the experiments are devoted 
to a broad class of stockpile stewardship and less than half to 
ignition, but progress has been made on all fronts. If you have 
a second question, I'd be happy to entertain it.
    Senator Feinstein. Yes, a second question would be, you 
sort of moved over ignition pretty carefully and quickly, but 
my understanding is that the strategies in place, and I 
understand this is all pioneering work, that the strategies in 
place to achieve ignition simply didn't work. And when I talked 
to the people out there, what they said is they were going back 
to basics, and they were going to come up with another 
strategy. I gather that has not been possible, is that correct?
    Mr. Cook. I believe that you got correct information from 
the lab. And so what was done in the early years was testing 
and basically an empirical change of parameters to see whether 
ignition could be achieved in the very earliest years. That 
could not be achieved. So, in fact, the lab did what it's good 
at. It went back to basics, fundamental science, and found, as 
they knew and had learned, that the model predictions, the 
computations, were not reflective of reality. It isn't that 
they were wrong codes. It's that an insufficient amount of 
physics had been put in.
    When that was in, then there was a drive toward improvement 
of the conditions for an ignition. And in fact, Livermore did 
achieve the point where, in the fusion fuel in the center of a 
capsule, more fusion energy was produced than the thermal 
energy that actually went into the compression of the very 
spot. This is still short of ignition by quite a bit, almost a 
factor of 100 in the number of neutrons produced. But there is, 
in parallel with the other stewardship experiments, a solid 
commitment to ignition. Step-by-step progress is being made, 
and we get regular reports on that.
    Senator Feinstein. Just one thing. So you're telling me 
that there still is going to be an effort to achieve ignition.
    Mr. Cook. There is absolutely an effort to achieve ignition 
ongoing right now.
    Senator Feinstein. And that has not been dropped?
    Mr. Cook. No, it has not.
    Senator Feinstein. Okay. Thank you.
    Senator Alexander. Senator Lankford.

              GOVERNMENT ACCOUNTING OFFICE HIGH RISK LIST

    Senator Lankford. Thank you, Mr. Chairman. I appreciate you 
all being here. And I want to say what I know has already been 
said as well, thank you for the work that you do. You do quiet 
work that defends our Nation every day, and hardly anyone pays 
attention to you, because you're doing your work well. And so I 
appreciate what you're doing every day to be able to protect 
the Nation and for what you have done for a long time in that.
    Let me ask a couple of general questions on some things. I 
know you're very aware of the GAO high risk list. The issue on 
the high risk list has been cost estimates. You deal with very 
difficult processes here. But the challenge is, GAO has 
determined some of the projects that go all the way back to 
1997, like the Savannah River project, that have far exceeded 
the original estimates and the time here.
    The concern is initially two things. One is, we have to 
live and breathe based on cost estimates and what we think 
something is going to cost, and we have to know we have a 
reliable estimate coming to us. Second is, the GAO statement is 
a little disconcerting.
    They made this comment in their report. Since the project 
began in 1997, the estimated cost of the project has increased 
by more than $6.3 billion. The schedule has been delayed by 
about 15 years. They stated, we found that, among other things, 
NNSA had not analyzed the root causes of the construction cost 
increases to help identify lessons learned and to help address 
the agency's difficulty in completing projects within cost and 
on schedule. They also mentioned in another spot that there was 
a question that they had about the sense of urgency in setting 
timelines to get some things completed to even determine how 
this gets resolved.
    So my question is, for the future, we've got to get good 
estimates. I know you want to get good estimates. What is in 
process right now, and when will that be done to make sure that 
the lessons learned can be implemented?
    General Klotz. Now, thank you, Senator, for that question. 
And of course, one of the key objectives of Secretary Moniz and 
of the current leadership of NNSA is to increase our skills and 
our success in terms of doing the basics of large capital 
construction projects that begin with good cost estimates, a 
very rigorous process by which we identify the requirements 
that we actually need, and assessment of alternatives for 
satisfying those requirements.
    We started to have some success in a couple of areas. For 
the last 2 to 3 years, we have been off the GAO's list, high 
risk list, for projects under $750 million. And earlier we were 
discussing how a couple of those smaller projects have been 
delivered actually early and under cost, which tells us that 
the investment that we're making in terms of talent, expertise, 
and experience in the area of large project management is 
beginning to yield some results.
    We still have three projects that are on the high risk 
list, the GAO's high risk list, the uranium processing facility 
at Oak Ridge, the replacement for the chemical and 
metallurgical building in Los Alamos, and the MO<INF>X</INF> 
Fuel Fabrication Facility in Savannah River. On the first two, 
we have adopted a fundamentally different approach about how we 
are going to construct these projects that is a mix of 
repurposing existing facilities, changing the processes within 
those facilities, and whether we do it more efficiently, more 
effectively, and instead of building one big box building, 
segregating work by the security requirements as well as the 
safety or hazard requirements associated with that building.
    We're a little more constrained by what we can do, and were 
pursuing that in both of those, and I think with very promising 
potential. We're little more constrained on the MO<INF>X</INF> 
Fuel Fabrication Facility in Savannah River, because the 
outside of the building has essentially been constructed, so 
the freedom or design space that we have to affect that is 
constrained.
    Senator Lankford. So give me the top lesson learned here 
and the thing that's going to be fixed in the timeframe on 
that. So you mentioned several things there, as far as, it 
sounds like, changing the way you do your contracting on the 
smaller projects. Is that being implemented in the larger 
programs for the future? And then I have one other follow up 
question, if the Chairman will allow me another minute, as 
well.
    General Klotz. It is. Making sure that you have people who 
actually know about the art and science of large project 
construction, which were doing, hiring----
    Senator Lankford. Most of the issues due to changes as you 
went through it, or most of the issues were the initial 
contract didn't understand completely what they were about to 
do?
    General Klotz. I think most of it had to do with locking in 
a cost estimate before we had gotten to the 90 percent design 
level. There's a lot of pressure as soon as we conceive of our 
project to come up with a number. People want to know how much 
it's going to cost. I think we have to be very, very 
disciplined and make sure we have gone through that rigorous 
cost estimating, analysis of alternatives, early design to 
ensure that the cost estimate that we are planning on and that 
we are communicating with Congress is, in fact, a realistic 
one.
    Senator Lankford. Right. The request for funding for this 
next year's a little over 10 percent increase in funding, 
obviously exceeds the budget caps and all that conversation 
that's already happened somewhat here. The question that I have 
is, how much of that money is related to some of these cost 
overruns that we're now going to get on top of for some of 
these big projects and call them done, so were not going to 
have those same costs added, let's say, 5 years from now, so 
were still catching up to some of the bad estimates from 
before, and how much of them are just operational expenses?
    General Klotz. I would like to get back with you on the 
detail. I don't know that I've quite parsed it out that way. 
The request that we have this year is based on what our current 
estimates are, which we feel fairly confident about, more 
confident that we could have said we were 2 or 3 years ago in 
terms of the cost estimate.
    Senator Lankford. Right.
    General Klotz. And a lot of that depends, of course, on 
level and consistent funding, because as you move the costs out 
further, it will cost more.
    Senator Lankford. It costs more. I understand that.
    General Klotz. Yes, sir.
    Senator Lankford. But I'm just trying to figure out the 
breakdown here, how much of that is still catching up to bad 
estimates from before, and how much of that is we're ahead of 
it now, and our estimating better in new projects and new 
tasks?
    General Klotz. I'd like to ponder that question and get 
back to you on that.
    Senator Lankford. Thank you.
    General Klotz. Thanks.
    Senator Lankford. Mr. Chairman, I yield back. Thank you.
    Senator Alexander. Thank you, Senator Lankford. Senator 
Feinstein.

                             MO<INF>X</INF>

    Senator Feinstein. Thanks very much. I wanted to ask about 
the mixed oxide fuel fabrication facility. And I think both the 
chairman and I remain very concerned about the costs and the 
schedule of the MO<INF>X</INF> facility. Now, this started out 
costing $4 billion and being complete in 2016. It's now 
expected to cost as much as $13 billion and not be ready until 
the late 2020s. Now, we've been into this to a great extent I 
think. We know that this is a treaty obligation, that the 
Russians are building a fast reactor to deal with it and that 
they are further behind than we are, at least that's the 
information that I have. The goal of disposing of weapons grade 
plutonium is certainly worthy, but the cost is enormous.
    Last year when we did this, we saw there were no 
alternatives, and that's one of the reasons why we continue to 
fund it. So my question is this. And I guess Ms. Harrington, 
it's for you. Where is the Department in evaluating 
alternatives to MO<INF>X</INF>, or have you given up? General, 
whatever, you're the boss man.
    General Klotz. Let me go ahead and start, but I'd love to 
give Ms. Harrington an opportunity, because she lives with this 
every day. You're right. We are still, as an Administration, 
committed to the plutonium management and disposition 
agreement. This is an agreement, as you indicated, between us 
and Russia, each of us to dispose of 34 metric tons of weapons 
grade plutonium. This is a key objective that we have. And the 
approach that we have adopted was to pursue a production 
facility in Savannah River that would use this excess weapons 
grade plutonium, mix it with uranium to produce a fuel, mixed 
oxide, that could be burned in simple nuclear reactors. So 
we've started on that project.
    I recall my first hearing with this Congress was before 
this Committee the day we had released a report from the 
Department of Energy posted on the NNSA Web site that laid out 
five different potential options for what we could potentially 
pursue that needed to have greater fidelity and greater 
costing. At the time, the Administration had proposed the 
notion of putting the MO<INF>X</INF> Fuel Fabrication project 
into cold standby. The Congress had different views. We were 
instructed to continue construction for 2014. And in the fiscal 
year 2015 Appropriations Act, our request for $221 million was 
up to $345 million, and we were told to continue to construct 
through fiscal year 2015, which we are doing.
    So at the same time, the Congress asked us to do two 
reports by an external federally funded research and 
development corporation to give us and you independent cost 
estimates of various options. The first of those reports, which 
will identify two options, continuing with MO<INF>X</INF> Fuel 
Fabrication Facility construction, and the other one, which we 
call dilution and disposal, is due in mid-April. And I believe 
the federally funded research and development corporation that 
we have asked to do that is on track to do that. The second 
one, which will identify a broader range of options, is due in 
mid-September.
    So as we build the budget request for fiscal year 2017, we 
will continue the process of dialoguing with Congress on the 
way forward, and we will have greater fidelity in terms of the 
out year funding as it relates to MO<INF>X</INF>. Now, have I 
left anything out?
    Senator Feinstein. Before you leave, so is the commitment 
to stay with MO<INF>X</INF>?
    General Klotz. The commitment through this year, as 
required, is to continue construction with the MO<INF>X</INF> 
Fuel Fabrication Facility with the funds that were enacted in 
2015, and we're doing that. Construction continues to go on. 
The Secretary has been down there, along with members of the 
South Carolina congressional delegation. I've been down there 
twice. Our principal deputy assistant was down there yesterday. 
Our deputy secretary has been there. This is a project which is 
very, very high in our radar scope in terms of watching how it 
proceeds.
    Senator Feinstein. Can the $345 million be spent? What if 
you decide to do something else?
    General Klotz. Well, we can execute the $345 million. I 
will tell you what Secretary Moniz has said publicly. This is 
not optimal funding rate for construction of a large project 
like this, but there is meaningful work that is being done in 
terms of constructing this facility as we speak.
    Senator Feinstein. Thank you.
    Ms. Harrington. The only thing I would go back to, Senator, 
is the point you made that the up-and-down cycles of funding 
are very disruptive to these kinds of projects. They make them 
very difficult to manage. They make them almost impossible to 
plan in a rational way, which is why we chose the $345 million 
number. It would provide consistency across several years and 
predictability in terms of the scope of construction that could 
be achieved during that period. So I think there is a strong 
rationale for why we put that particular number in the budget.
    Senator Feinstein. It's just from my perspective. I don't 
want to see us look back on this as we have looked back on one 
other project and say, well $600 million has been wasted. So I 
think it's really a hard problem for you all.
    General Klotz. It is. And again, we're hoping that the 
external look, as required by and requested by Congress, will 
give us a more solid grounding in terms of the specific cost 
estimates associated with the various alternatives.
    Senator Feinstein. I hope so. Thank you. Thank you, Mr. 
Chairman.
    Senator Alexander. Thank you, Senator Feinstein. General, 
in the report, which is due April 16, do you plan to recommend 
the lowest cost solution?
    General Klotz. Again, Senator. I think we want to wait and 
see what the report says and then engage, as we have, in 
dialogue with members of Congress in terms of how best to 
proceed.
    Senator Alexander. Have you learned anything from the Red 
Team review of the uranium project that you can apply to the 
MO<INF>X</INF> and the plutonium project in Los Alamos? I know 
they are different sorts of projects, but any lessons there? 
Because the Red Team review seemed to be helpful and coming to 
the current much better management situation it seems that you 
have with the uranium project.
    General Klotz. Yes, sir. On one level, yes. One of the 
things that we did in response to the Red Team recommendations 
was to strengthen our oversight of both programs and projects 
within the NNSA and within the Department of Energy at large 
and establishing a program manager for not only uranium and 
plutonium and tritium, but also for the construction of--or for 
how we dispose of weapons grade plutonium.
    So we have stronger management oversight. But as I've 
suggested to the Senator from Oklahoma, there, the facility, 
the superstructure for the building, is essentially up. So some 
of the things that we have adopted from the Red Team report in 
terms of segregating work, dividing up hazard and the security 
criteria into different facilities with varying cost per square 
footage, are just not possible as far as the MO<INF>X</INF> 
Fuel Fabrication Facility at this stage in the project.
    Senator Alexander. One of the recommendations, I believe, 
in the Red Team review was that it be a continuous sort of 
review, that the Red Team not just go home, but every 6 months 
or every year, it would do the same kind of thing, because it's 
a big project, and there are bound to be surprises and changes 
and alterations. Am I right about that? Is that planned?
    General Klotz. That's right. In fact, we've already had our 
first review late last year in that, and we will run them at 
roughly 6-month intervals to do that. And indeed, we're doing 
that across NNSA on other projects, but also across the 
Department of Energy.
    One of the things that came out towards the end of last 
year was a directive from Secretary of Energy Moniz for large 
projects that there be a continuous process internally and that 
there be a periodic process independent of what goes on inside 
the Department of Energy or NNSA with experts to review and 
question, probe how we are proceeding on these large projects.
    Senator Alexander. Well, I have no other questions. I'm 
encouraged by that. I think the combination of the kind of 
accountability that Naval Reactors have for their reactors and 
this sort of continuous review, and an agreement with the 
Congress about a time schedule, a budget, and that we don't 
build until we have 90 percent of the design complete, I think 
the combination of all those things has made some good progress 
in terms of these big construction projects. And so, we'll 
continue with that.
    I don't have any other questions. Senator Lankford, do you 
have any other questions?

                        NUCLEAR NONPROLIFERATION

    Senator Lankford. I have one other quick question. It deals 
with the defense nuclear nonproliferation appropriation. The 
request obviously goes up significantly. That's the combining 
of several different programs behind the scenes on that. The 
question is, talk me through the several million dollars in the 
process of combining those two and why you think this will be 
more effective. So why does the cost justify it, basically?
    Ms. Harrington. Thank you for that question, Senator. We 
took a long time to look at this restructuring. When we look at 
the mission that we have to meet going forward and we project 
over the horizon, and we've been doing studies along this line 
for the past 2 plus years, trying to look at how the evolving 
threat environment affects our implementation of mission. The 
counterterrorism counter proliferation and the counterterrorism 
incident response programs formerly were in the weapons 
account, but they worked with the nuclear nonproliferation 
programs. That is the sweet spot for these programs to work 
together, because much of the drive behind the nonproliferation 
programs is, in fact, counterterrorism.
    So by pulling those programs out of the weapons account, it 
leaves Dr. Cook with a clear pathway toward managing the 
stockpile and focusing on that particular very important 
mission, and it leaves the defense nuclear nonproliferation 
appropriation covering the whole spectrum of prevent, counter, 
and respond, as the administrator mentioned earlier. You will 
hear this a lot from us, because this is a very important 
continuum for addressing the threats that we currently 
encounter in the world.
    So for us, we currently, already, co-plan, co-train, co-
execute with those offices. Pulling them together into one 
appropriation simply increases the opportunity for synergy, 
increases the opportunity for efficiencies, for joint planning, 
which is something that we have been encouraged to do.
    Senator Lankford. No. I understand that, and that's great. 
And the structure of it, you're right, make sense, and I'm sure 
it's one of those things for several years everyone has looked 
at and said, why are they over there, why are they doing that. 
Part of my question is, why is it $100 million to make that 
transition and that restructuring?
    Ms. Harrington. It simply moves the funding that used to be 
in the weapons account into the nonproliferation appropriation.
    Senator Lankford. And so it has $100 million decrease in 
the weapons account as well to be able to offset that? It looks 
like it's going up but going up in both areas. We are not 
seeing a decrease in one area and an increase in another.
    General Klotz. Well, it's largely a transfer out of one 
budget category into another budget category. But there is 
increase in the defense nuclear nonproliferation account. If 
you subtract out the money that was the transfer from 
counterterrorism and incident response, we still show about a 
4.4 percent increase in what one might call sort of core 
nuclear nonproliferation activities which span the range of 
trying to lock down special nuclear materials across the globe, 
reduce dependence of commercial activities and universities on 
highly enriched uranium, enhancing border crossings to prevent 
smuggling of special nuclear materials, that whole range of 
work continues. As Senator Feinstein noted in her opening match 
for marks, it's showing an increase.
    Senator Lankford. Incredibly valuable. I guess what I am 
trying to figure out is, what part would have had a request for 
increase before, regardless of where they're stationed, and 
what part is the relocation cost? That's what I'm trying to 
find out.
    General Klotz. It's just an accounting. It's an accounting 
shift from one part of the ledger to another part of the 
ledger. There may be some increases, and will get back to you 
with specific things that we're doing. In counterterrorism we 
have to work very closely with State and local responders on 
emergency communications, on training. There, quite frankly, is 
a high demand for NNSA, Department of Energy services, by other 
domestic agencies that might have to respond, God forbid, to a 
terrorist threat or incident in the United States. We do a lot 
of training with them. We do a lot of back-and-forth on 
particular types of equipment and capability that are necessary 
to do that.
    And we also do that, quite frankly, with foreign partners 
as well. As the interest in civil nuclear power goes up across 
the world, there are going to be more and more countries that 
have to deal with the safety and security issues associated 
with nuclear materials, and we have deep expertise and 
experience in this area that fits into this prevent, counter, 
and respond spectrum that Ms. Harrington mentioned.
    Senator Lankford. Right.
    Ms. Harrington. Senator, I do have all the precise numbers, 
the comparisons between 2015 and 2016. In the counterterrorism 
and incident response areas, very, very modest. It's about a 
$10 million increase over last year to account for a 
significant drop in the counterterrorism, counter proliferation 
budget that resulted from the Congressional action. We felt 
strongly about restoring part of that. Some of that is for work 
on standoff disablement. If, God forbid, we were ever to have 
to encounter a trafficked nuclear weapon or an improvised 
nuclear weapon, how could we safely manage it? That is the kind 
of research that this will restore.
    Senator Lankford. Thank you.
    Senator Alexander. Senator Feinstein.
    Senator Feinstein. Thank you very much, Mr. Chairman. Mr. 
Chairman, you began the hearing by asking Admiral Richardson 
about the 60 year safety record of the nuclear program of the 
Navy, of which we are all very proud, and he escaped any 
questions. So I don't want him to feel lonely or unappreciated 
or leave here.
    Senator Alexander. Ask him a few. Ask him a few.

                             NAVAL REACTORS

    Senator Feinstein. Okay. I will ask him a few. You mention 
in your statement, which I have read, about highlights of 
operations, that they include the nuclear powered aircraft 
carrier, the George Bush CVN 77, the only coalition strike 
option in the fight against ISIL militants, for 54 days 
executing 20 to 30 sorties each day. Can you talk a little bit 
about that, because this, to me, it's kind of present action, 
and I would be very interested in knowing how it went, what 
broke down, what was imprecise, what was very precise? Can you 
summarize it in an unclassified setting for us?
    Admiral Richardson. I'm sorry, ma'am, the details of the 
strikes themselves?
    Senator Feinstein. No, what you can say. If you did 20 to 
30 sorties a day, I assume those were strikes?
    Admiral Richardson. They were, ma'am. I would have to get 
back to but the details on that. Our contribution to that was 
really providing the technical support to keep the carrier on 
station. And so that's one of the primary functions of my 
technical support base is to support today's fleet operations, 
and so the response of that team to respond to really a 
continuous stream of technical requests and that sort of thing.
    Senator Feinstein. Talk about the continuous stream of 
technical requests with an ongoing mission of 20 to 30 sorties 
a day.
    Admiral Richardson. Right. And so, as you know, we are 
primarily focused on continuity of power. It's our desire to 
provide safe and effective reliable propulsion and power to the 
aircraft carrier. And so as they work through their day to day 
operations, technical issues come up. We respond to fleet 
requests for help. We get about 12 of those per day from the 
entire nuclear powered fleet. And so that is a major part of 
our business and a significant portion of our budget request.
    Some of the more significant accomplishments of that 
technical base just this year alone could be directly 
attributable to recovering literally 30 to 40 submarine and 
aircraft carrier years of operation, as they resolve technical 
issues, allowing those nuclear powered warships to continue to 
execute their operations in support of the Nation's interests 
around the world.
    And if that capability did not exist, very, very talented 
people supported by the appropriate facilities and equipment, 
we would have to potentially pull those submarines and aircraft 
carriers in and shut them down pending resolution. It's the 
responsiveness of our team that allows them to remain on 
station, to continue and to strike, or do whatever job they do.
    General Klotz. Could I add something to that, Senator.
    Senator Feinstein. Certainly.
    General Klotz. And I say this--
    Senator Feinstein. And if you would touch on the funding 
request, which is $1.375 billion, and that's an 11 percent 
increase of $136 million.
    General Klotz. Sure. And I say this as a retired career Air 
Force officer, that our Naval Reactors does extraordinarily 
important work in the day-to-day operation of the U.S. Navy. 
And one of the challenges that has happened over the last 
couple of years since I've been in this seat, is a significant 
reduction in the request of the Naval Reactors portion of the 
budget, largely what we might call infrastructure or the base.
    There's a lot of focus on the new reactor for the Ohio 
replacement submarine or the new reactor for an aircraft 
carrier, the research and development that they're doing. But 
often what gets overlooked is that day to day operation that 
allows the fleet to stay at sea rather than having to go back 
to a port and fix it. So the allocation is extraordinarily 
important so that we can continue to provide that kind of 
support to the U.S. Navy as it carries out its global mission.
    Admiral Richardson. Thank you, General. And so just to 
describe our budget request, a majority of that request goes to 
fund that technical support base at our labs and other 
operating sites, to support not only today's nuclear fleet as 
we have described, but also to operate the prototype reactors 
which have a dual function, a research and development 
function, that is the technical work that goes to de-risk the 
new reactor core that we are going to put in the replacement 
for the Ohio class, as well, the other purpose for those 
reactors is a training function, where we train about 3,000 
sailors, about 1,000 of those coming through our Department of 
Energy facility in New York each year, and so there is this 
continuous stream of operators to the fleet.
    So the majority of that base funding goes to support those 
people, really world-class technical base to get through the 
technical issues, as well as there is operating and maintenance 
of those prototype reactors, the spent fuel facility, Mr. 
Chairman, that we talked about earlier, just to maintain those 
facilities operating, dually required periodic and corrective 
maintenance to keep those facilities operating.
    And as the general said, in the past 5 years, those 
facilities have been appropriated to about $550 million less 
than the request, and we're trying to get back up on our plan 
to stop backlogging maintenance on those facilities. So those 
are the fundamental elements of our request in the base. And 
then, ma'am, I know you're very conversant on the three 
projects, the Ohio class replacement reactor, the refueling 
that the general mentioned, and then the spent fuel facility 
Idaho that we talked about earlier.
    Senator Feinstein. Thank you very much, Admiral. Appreciate 
it.
    Admiral Richardson. Yes, ma'am.
    Senator Alexander. Thanks, Senator Feinstein. I have no 
other questions. Senator Lankford, do you have other questions?
    Senator Lankford. No.
    Senator Alexander. Well, thank you very much for this. In 
summary, I'm encouraged based upon where we were 2 to 3 years 
ago in terms of the big projects. And I would like to continue 
to have our regular review of those things, so General Klotz, 
if you could suggest to us. I'd like to ask you to pick the 
times that make the most sense. I mean, if you're going to have 
a Red Team review every 6 months, or if there is a budget event 
coming, let's have the review--we don't want to make work. We 
like to have a review at a logical time where you have 
something to tell us and where we can ask questions. I'm 
guessing spring and fall are a couple of good times. But think 
about that, working with our staff, and then Senator Feinstein 
and I will be available to you.
    The hearing record will remain open for 10 days. Members 
may submit additional information or questions for the record 
if they would like.

                          SUBCOMMITTEE RECESS

    Senator Alexander. This subcommittee requests all responses 
to questions for the record be provided within 30 days of 
receipt. Thank you for being here today. This subcommittee is 
adjourned.
    [Whereupon, at 10:30 a.m., Wednesday, March 11, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
